RESPONDENT APPENDIX
TABLE OF CONTENTS
Order of the United States Court of Federal
Claims in Klamath Irrigation et al. v.
united States et al. Granting Intervention
(February 28, 2005) ............................................ 1a
16. U.S.C. § 1536 ..................................................... 22a
50 C.F.R. § 402.02 ................................................... 43a
50 C.F.R. § 402.14 ................................................... 50a

Res.App.1a
ORDER OF THE UNITED STATES COURT OF
FEDERAL CLAIMS IN KLAMATH IRRIGATION

ET AL. v. UNITED STATES ET AL.
GRANTING INTERVENTION
(FEBRUARY 28, 2005)
IN THE UNITED STATES
COURT OF FEDERAL CLAIMS
________________________
KLAMATH IRRIGATION DISTRICT, ET AL.,

Plaintiffs,
v.
THE UNITED STATES,

Defendant,
PACIFIC COAST FEDERATION OF FISHERMEN’S
ASSOCIATIONS, INSTITUTE FOR FISHERIES
RESOURCES, THE WILDERNESS SOCIETY,
KLAMATH FOREST ALLIANCE, OREGON
NATURAL RESOURCES COUNCIL,
WATERWATCH OF OREGON, NORTHCOAST
ENVIRONMENTAL CENTER, and SIERRA CLUB,

DefendantIntervenor-Applicants.
________________________
No. 01-591 L
Takings and contract case involving waters of the
Klamath Basin; Motion to intervene, as of right,
under RCFC 24(a)(2); 1966 amendments to

Res.App.2a
Fed. R. Civ. P. 24(a); Practical impairment;
Impact of stare decisis in impairing or
impeding putative intervenor’s interests;
Types of “interests” covered by RCFC 24(a);
Commercial fishing interests; American Maritime–
proper interpretation; Rejection of artificial barriers
to intervention as devoid of substance; Adequate representation; Intervention of PCFFA allowed.
Before: Francis M. ALLEGRA, Judge.
ORDER
ALLEGRA, Judge:
In the case sub judice, a group of water districts
and individual farmers seek just compensation under
the Fifth Amendment, as well as damages for breach
of contract, owing to restrictions placed by the U.S.
Bureau of Reclamation on the use, for irrigation purposes, of the water resources of the Klamath Basin of
southern Oregon and northern California. Eight organizations—Pacific Coast Federation of Fishermen’s Associations, Institute for Fisheries Resources, The Wilderness Society, Klamath Forest Alliance, Oregon Natural
Resources Council, WaterWatch of Oregon, Northcoast
Environmental Center, and the Sierra Club—have
moved for leave to intervene in this action under RCFC
24(a)(2). These organizations all have been involved
in recent disputes involving the waters of the Klamath
Basin, see, e.g., Kandra v. United States, 145 F. Supp.
2d 1192 (D. Ore. 2001); Pacific Coast Federation of
Fishermen’s Ass’ns v. Bureau of Reclamation, 138 F.
Supp. 2d 1228 (N.D. Cal. 2001). They assert varying
interests relating to the allocation and ownership of
that water, which interests, they contend, may be

Res.App.3a
impacted by this litigation. Defendant takes no position
on this motion, but plaintiffs vigorously oppose it,
asseverating that intervention of any of these organizations, either as of right or via permission, is not
authorized by RCFC 24.
As originally adopted in 1937, Rule 24(a) of the
Federal Rules of Civil Procedure provided for intervention of right only in two limited circumstances:
when “the applicant is or may be bound by a judgment
in the action” or “is so situated as to be adversely
affected by a distribution or other disposition of property in the custody of the court or an officer thereof.”
Fed. Rule Civ. Proc. 24(a)(2) and (3) (1937). In 1966,
the scope of the rule was substantially expanded. In
explaining this change, the Advisory Committee noted
that the earlier wording of the rule was “unduly
restricted” and prone to “poor results,” finding instead
that “[i]f an absentee would be substantially affected
in a practical sense by the determination made in an
action, he should, as a general rule, be entitled to
intervene.” Advisory Committee’s Notes on 1966
Amendments to Fed. Rule Civ. Proc. 24, 28 U.S.C. App.,
p. 756. Toward that end, it deleted the “bound by a
judgment” language to “free[ ] the rule from undue
preoccupation with strict construction of res judicata,”
and “imported practical considerations” into the rule
by no longer requiring that the property at issue be
held in the custody of the court or an officer thereof.
Id.1 The version of Rule 24(a)(2) that emerged from
1 Various courts had held that the “bound by a judgment” language applied only where a decree in the pending litigation
would be “res judicata of the rights sought to be protected
through intervention.” Sutphen Estates, Inc. v. United States,
342 U.S. 19, 21 (1951); see also Sam Fox Publ’g Co., Inc. v.

Res.App.4a
this amendatory process has, with minor modifications
not pertinent herein, survived to this day and forms
the basis, haec verba, for RCFC 24(a)(2). The latter
rule reads:
Upon timely application anyone shall be
permitted to intervene in an action . . . when
the applicant claims an interest relating to
the property or transaction which is the
subject of the action and the applicant is so
situated that the disposition of the action
may as a practical matter impair or impede
the applicant’s ability to protect that interest,
unless the applicant’s interest is adequately
represented by existing parties.
By way of further analogy to the Federal Rules, the
findings required by RCFC 24(a)(2) are identical to
those required by RCFC 19(a)(2), dealing with joinder
of persons needed for just adjudications, revealing an
obvious symmetry between these two gatekeeper
provisions.2
Reflecting the breadth of the 1966 amendments,
courts interpreting the newer version of Rule 24(a)(2)
United States, 366 U.S. 683, 694 (1961). By comparison, although
intervention under former Rule 24(a)(2) was authorized only if
there was a fund or other property subject to the control or disposition of the court, many courts broadly construed this requirement,
to the point where the 1966 Committee’s Notes indicated that
some courts “virtually disregarded the language of this provision.”
See Charles Alan Wright, Arthur R. Miller and Mary Kay Kane,
7C Federal Practice and Procedure (hereinafter “Federal Practice and Procedure”) § 1907 at 261 (2d ed. 1986).
2 The same findings are also required to certify a class under
Rule 23(b)(1)(B) of the Federal Rules of Civil Procedure, but that
provision finds no corollary in this court’s rules.

Res.App.5a
generally have concluded that “the requirements for
intervention are to be construed in favor of intervention.” Am. Maritime Transp., Inc v. United States, 870
F.2d 1559, 1561 (Fed. Cir. 1989).3 These and other
courts, often noting that the rule was modified to
divorce it from strict res judicata considerations, have
repeatedly concluded that the potential for generating
adverse precedent, applicable in other related cases
under the doctrine of stare decisis, may “as a practical
matter impair or impede” an applicant’s ability to
protect an interest relating to the property or transaction which is the subject of the action. See Freeman
v. United States, 50 Fed. Cl. 305, 309 (2001) (“When
analyzing this element, the court has considered the
impact of stare decisis.”); Anderson Columbia Envtl.,
Inc. v. United States, 42 Fed. Cl. 880, 882 (1999) (“The
potential stare decisis effect of a decision often supplies
the ‘practical impairment’ required by Rule 24(a).”);
see also Stone v. First Union Corp., 371 F.3d 1305,
1309-10 (11th Cir. 2004) (“the potential for a negative
stare decisis effect ‘may supply that practical disadvantage which warrants intervention of right’” (quoting
Chiles v. Thornburgh, 865 F.2d 1197, 1214 (11th Cir.
1989)); Coalition of Arizona/New Mexico Counties for
3 See also Southwest Ctr. for Biological Diversity v. Berg, 268
F.3d 810, 818 (9th Cir. 2001) (“In general, we construe Rule 24(a)
liberally in favor of potential intervenors.”); Turn Key Gaming,
Inc. v. Oglala Sioux Tribe, 164 F.3d 1080, 1081 (8th Cir. 1999)
(“Rule 24 is to be construed liberally, and doubts resolved in
favor of the proposed intervenor.”); Federal Savings & Loan Ins.
Corp. v. Falls Chase Special Taxing Dist., 983 F.2d 211, 216
(11th Cir. 1993) (“any doubt concerning the propriety of allowing
intervention should be resolved in favor of the proposed intervenors”); Purnell v. Akron, 925 F.2d 941, 950 (6th Cir. 1991) (Rule
24 should be “broadly construed in favor of potential intervenors”).

Res.App.6a

Stable Econ. Growth v. Dept. of Interior, 100 F.3d
837, 844 (10th Cir. 1996) (“the stare decisis effect of
the district court’s judgment is sufficient impairment
for intervention under Rule 24(a)(2)”); Oneida Indian
Nation of Wisc. v. State of New York, 732 F.2d 261,
265 (2d Cir. 1984). In assessing the practical impact
of stare decisis, court have looked not only to the likely
ultimate disposition of a case, but also to potential
subsidiary factual and legal findings. See, e.g., FDIC v.
Jennings, 816 F.2d 1488, 1492 (10th Cir. 1987) (noting
that under Rule 24(a), stare decisis considerations
apply to rulings on a “legal point” or “factual issues”).
This court must also focus on the nature of the
“interest relating to the property or transaction which
is the subject of action” that is required for intervention
of right under RCFC 24(a)(2). Several decisions of the
Supreme Court shed light on what is a qualifying
“interest.” In Cascade Natural Gas Corp. v. El Paso
Natural Gas Co., 386 U.S. 129 (1967), the Court, citing
the Advisory Committee Notes as evidence that
“some elasticity was injected” into the new rule, id.
at 134 n.3, held that a private business with an
interest in the solvency of a corporation to be formed
pursuant to a consent decree could intervene in the
antitrust suit considering that decree, thereby suggesting that the term “interest” is not limited to particular property interests, but includes economic interests
threatened by a ruling. Five years later, in Donaldson
v. United States, 400 U.S. 517, 531 (1971), the Court
held that a taxpayer could not intervene of right in a
proceeding to enforce a summons against a third
party, concluding that the phrase “interest” “obviously”
means “a significantly protectable interest.” More
recently, Justice O’Connor, in her concurring opinion

Res.App.7a
in Diamond v. Charles, 476 U.S. 54, 75 (1986), stated
that the “significantly protectable interest” required
under Donaldson is a “direct and concrete interest
that is accorded some degree of legal protection.”
These decisions, though informative, hardly occupy
the field, leaving to lower courts the task of mapping
further the contours of what is meant by an “interest.”
Numerous courts, including the Federal Circuit, have
risen to that task in observing that such an “interest”
must be direct, substantial, and legally protectable.
See American Maritime, 870 F.2d at 1561; see also, e.g.,
Michigan State AFL-CIO v. Miller, 103 F.3d 1240, 1246
(6th Cir. 1997); Panola Land Buying Ass’n v. Clark,
844 F.2d 1506, 1509 (11th Cir. 1988); Meridian Homes
Corp. v. Nicholas W. Prassas & Co., 683 F.2d 201, 204
(7th Cir. 1982).4 Not surprisingly, many of the cases
in 4 which a sufficient “interest” has been found under
Rule 24(a)(2) involve readily identifiable interests in
land or other property. See Federal Practice and Procedure § 1908 at 272-75 (citing numerous cases); see
also Diaz v. Southern Drilling Corp., 427 F.2d 1118,
1124 (5th Cir. 1970) (“Interests in property are the most
elementary type of right that Rule 24(a) is designed
4 The court does not mean to suggest that these cases represent
unanimity on this point, with some courts certainly adopting a
more relaxed definition of “interest” and others espousing a
stricter view. See Brian Hutchings, Waiting for Divine Intervention: The Fifth Circuit Tries to Give Meaning to Intervention Rules in Sierra Club v. City of San Antonio, 43 Vill. L. Rev.
693, 714-19 (1998) (discussing cases across the spectrum); see
also Harris v. Reeves, 946 F.2d 214, 219 (3d Cir. 1991) (noting
that “an exact definition of the kind of interest justifying intervention remains elusive and that courts [have] described the
level of interest required as ‘significantly protectable,’ ‘legally
protectable,’ and ‘direct’ as opposed to contingent or remote.”).

Res.App.8a
to protect.”). But, as Judge Posner has reminded,
Rule 24(a) “does not require that the intervenor
prove a property right, whether in the constitutional
or any other sense.” United States v. City of Chicago,
870 F.2d 1256, 1260 (7th Cir. 1989); see also Brennan
v. N.Y.C. Bd. of Educ., 260 F.3d 123, 130 (2d Cir. 2001)
(“Rule 24(a)(2) requires not a property interest, but,
rather, ‘an interest relating to the property or transaction which is the subject of the action.’”). Thus, other
types of interests have been found to justify intervention, among them economic and business interests,
as well as those involving access to public resources
or the enforcement of statutory rights conferred by
Congress, provided these interests were legally protectable and not contingent. See, e.g., Cascade Natural
Gas, 386 U.S. at 134-35; United States v. Alisal Water
Corp., 370 F.3d 915, 919 (9th Cir. 2004); Utahns for
Better Transp. v. U.S. Dept. of Transp., 295 F.3d
1111, 1115 (10th Cir. 2002); Natural Resources Defense
Council v. Costle, 561 F.2d 904, 909 (D.C. Cir. 1977);

New York Public Interest Research Group, Inc. v.
Regents of the University of the State of New York,
516 F.2d 350, 351-52 (2d Cir. 1975).

With these principles as reference points, the
court concludes that at least one of the applicants is
entitled to intervene in this case, as a matter of
right: the Pacific Coast Federation of Fishermen’s
Associations (the PCFFA), a group of 25 West Coast
fishermen’s organizations representing approximately
3,000 small commercial fishermen, most of whom
derive all or part of their income from Pacific salmon
that spawn in the waters of the Klamath Basin. In
the court’s view, the PCFFA possesses a legally protectable interest involving the water of the Klamath

Res.App.9a
Basin that is “related to the property or transaction”
at issue, one that lies in maintaining access to that
water and ensuring that it is allocated in a fashion
that promotes its fishing interests. One looking for
evidence of the nexus between that interest and this
litigation need go no further than the motion filed by
plaintiffs herein which urges this court to find that
they have a property interest in the waters of the
Klamath Basin. A finding that such a property interest
exists undoubtedly would impair or impede PCFFA’s
ability to claim, in the future, that the same waters
should be used in a less-restricted or unrestricted
fashion that promotes their fishing interests. And it
is no answer to assert, as plaintiffs have, that the
Endangered Species Act (ESA), 16 U.S.C. §§ 1531, et
seq., requires the Bureau of Reclamation to protect
endangered fish in the Klamath Basin, whether or
not its actions occasion a taking. To the contrary,
there is indication neither that the ESA is designed
to protect commercial fishing interests of the sort
asserted by the PCFFA, see 16 U.S.C. §§ 1532(3),
1533(f), nor that the steps required by the ESA are
so clearly identified as to dictate the Bureau’s choices
in accomplishing the goals of that statute. Indeed, with
commendable candor, government counsel has admitted that a finding by this court that plaintiffs are
entitled to just compensation would cause the Bureau
of Reclamation to think twice before allocating water
to fishing interests at the expense of further irrigation,
potentially causing the Bureau to allocate less water
to the former interests than it might otherwise.5
5 See also Barton H. Thompson, Jr., The Endangered Species
Act: A Case Study in Takings & Incentives, 49 Stan. L. Rev.
305, 335 (1997) (“How the government executes the ESA depends

Res.App.10a
The interests that link the PCFFA to this case
thus are central, rather than collateral; they are not
contingent. They are similar to those successfully
invoked by intervenors in other cases involving limited
water resources. See, e.g., Georgia v. Army Corps of
Engineers, 302 F.3d 1242, 1251-52 (11th Cir. 2002)
(Florida permitted to intervene in dispute involving
water allocation in order to protect endangered and
threatened species and the stock of fish and seafood
available for harvest); Sierra Club v. Glickman, 82
F.3d 106, 109 (5th Cir. 1996) (trade association representing farmers allowed to intervene in suit to cut off
federal subsidies to those who pumped water from an
aquifer because of potential impact on access to
irrigation water); see generally, New Jersey v. New
York, 283 U.S. 336, 342-43 (1931) (stating that an
interstate river “offers a necessity of life that must be
rationed among those who have power over it”). And,
by all indications, they are the exact interests that
prompted the United States District Court for the
District of Oregon to allow PCFFA to intervene in
the related proceedings there involving the Klamath
Basin. See Kandra, 145 F. Supp. 2d at 1192; Kandra
v. United States, Minute Entry of Order Granting
Motion to Intervene, No. 01-6124-TC (D. Ore. Apr. 26,
2001).
In the court’s view, it is also beyond peradventure
that the disposition of this case “may as a practical
matter impair or impede the applicant’s ability to
protect” its interest. For one thing, there is the
distinct possibility that other courts, under stare
not on prior decisions alone, but also on how the government
and property owners believe courts will resolve future takings
claims.”).

Res.App.11a

decisis, would credit any findings adverse to PCFFA
made here (particularly if those findings were affirmed
by the Federal Circuit). And even were this not true,
PCFFA’s interests could be impaired or impeded to
the extent that the United States, via the doctrines
of res judicata or collateral estoppel, was prohibited
from relitigating in other fora questions involving
plaintiffs’ entitlement to the water in question. In
other words, although the interests of the United States
and PCFFA do not entirely coincide, they considerably
overlap—certainly enough to give rise to the distinct
possibility that a ruling against the United States
would have significant impacts on the allocation of
the water in the Klamath Basin and corresponding
negative impacts on PCFFA’s fishing interests. That
the precise relationship between the availability of
such water and the health of the Pacific fisheries
remains debatable does not render PCFFA’s interest
“contingent.” To rule otherwise would be tantamount
to requiring PCFFA to prove what might be the
entirety of its case elsewhere in order to intervene here,
a proof requirement that runs counter to the general
thrust of courts in construing the new version of Rule
24(a) in favor of intervention. See, e.g., Brennan, 260
F.3d at 129 (“an application to intervene cannot be
resolved by reference to the ultimate merits of the
claims which the intervenor wishes to assert following
intervention”); Turnkey Gaming Inc. v. Oglala Sioux
Tribe, 164 F.3d 1080, 1081 (9th Cir. 1999) (“An application for intervention cannot be resolved by reference
to the ultimate merits of the claim the intervenor
seeks to assert unless the allegations are frivolous on
their face.”).

Res.App.12a
In arguing to the contrary, plaintiffs dwell on
that portion of American Maritime, which states that
“[i]ntervention is proper only to protect those interests
which are “of such a direct and immediate character
that the intervenor will either gain or lose by the
direct legal operation and effect of the judgment.””
870 F.2d at 1561 (quoting United States v. American
Telephone and Telegraph Co., 642 F.2d 1285, 1292
(D.C. Cir. 1980) (quoting Smith v. Gale, 144 U.S. 509,
518 (1892)). But, at the outset, it is critical to note that,
read in context, the quoted language was employed
merely to define what is an “interest” within the
meaning of RCFC 24(a)—the ratio decidendi of the
Federal Circuit’s opinion—and surely was not intended
as obiter dicta commentary on that portion of the
rule which requires a court to decide whether the disposition of the action “may as a practical matter
impair or impede the applicant’s ability to protect
that interest.” Were this court to subscribe to plaintiffs’ more sweeping construction of this language, it
would have to conclude that the Federal Circuit
intended to emasculate the changes wrought by the
1966 amendments, and did so indirectly, in the guise
of defining what is an “interest” within the meaning
of the new rule. If plaintiffs are correct, the Federal
Circuit could scarcely have selected a worse case for
this proposition than AT&T, supra. There, the D.C.
Circuit, quoting liberally from the 1966 Advisory
Committee notes, broadly applied the practical impairment requirement of the rule in granting intervention status to parties whose only claim was that
enforcement of a discovery order against a third
party would compromise their defense of an entirely

Res.App.13a
separate action. AT&T, 642 F.2d at 1291-93.6 Notably,
in an earlier opinion, that same court, sitting en banc
in Smuck v. Hobson, 408 F.2d 175 (D.C. Cir. 1969),
explicitly rejected the notion that the term “interest,”
as used in the new version of Rule 24, could be construed narrowly so as effectively to reinstate the “bound
by” language of the prior rule, stating that it would
be unfortunate “to allow the inquiry to be led once again
astray by a myopic fixation upon ‘interest.’” Id. at
179. In light of these considerations, not to mention
the plain wording of the rule and the wealth of
authority construing it, the court has no hesitation in
concluding that the language employed in American
Maritime was intended only to emphasize that qualifying interests under RCFC 24(a)(2) must not be
indirect or contingent, and not to preclude a finding
of practical impairment based, for example, upon the
application of stare decisis. To accept plaintiff’s contrary
contention is to rise above its source and eviscerate
the rule.
Nonetheless, several decisions in this court have
read the quoted language in American Maritime broad6 Notably, the Supreme Court’s decision in Smith, cited both in
American Maritime and AT&T, did not involve some predecessor
to the current intervention rules, but rather section 90 of the
Dakota Code of Civil Procedure, which simply provided for
intervention where an applicant had “an interest in the matter
in litigation.” Smith, 144 U.S. at 517. Thus, the only common
strand between section 90 and Rule 24(a) was the use of the
word “interest;” the former did not have a practical impairment
requirement like the latter. Perhaps because of this, Justice
Stewart, in his dissent in Cascade Natural Gas, indicated that
the language in Smith is “of limited use in deciding particular
cases” involving Rule 24. Cascade Natural Gas, 386 U.S. at 145
(Stewart, J., dissenting).

Res.App.14a
ly and restrictively—but only in mistakenly erecting
artificial barriers to intervention. For example, while
expressing nominal adherence to the practical impairment language of RCFC 24(a), at least two decisions
have suggested that applicants must show that legal
“repercussions . . . are certain to develop if plaintiffs
succeed.” Hage v. United States, 35 Fed. Cl. 737, 741
(1996); see also Karuk Tribe of California v. United
States, 27 Fed. Cl. 429, 431 (1993). To be sure, along
with predictability and consistency, certainty is one
of the core values of the law, indeed, one of the pillars
that supports the doctrine of stare decisis. But, no
Federal law of which this court is aware has ever
imposed certainty as a requirement of proof, particularly at the outset of litigation—and RCFC 24(a) is no
exception, as it only requires that the disposition of
the case “may” impede or impair an applicant’s interests. Hage, Karuk Tribe and any other case requiring
more than this basic, threshold showing require too
much, and run counter to the overwhelming weight of
authority. See United States v. City of Los Angeles,
288 F.3d 391, 401 (9th Cir. 2002) (“the relevant inquiry
is whether [the action] ‘may’ impair rights ‘as a
practical matter’ rather than whether [it] will ‘necessarily’ impair them.”); Sierra Club v. Glickman, 82
F.3d 106, 109 (5th Cir. 1989) (reading the term “may”
as requiring only that an interest “potentially” be
impaired or impeded).
Other cases have flipped the Federal Circuit’s
teaching that RFC 24 “be construed in favor of intervention,” American Maritime, 870 F.2d at 1561, on
its head, holding instead that intervention in this
court is “disfavored” because this court is one of
“limited” jurisdiction. See, e.g., Freeman v. United

Res.App.15a

States, 50 Fed. Cl. 305, 308 (2001); Anderson Columbia
Envtl. v. United States, 42 Fed. Cl. 880, 881-82 (1999).
Tellingly, these decisions fail to translate their view
of this court’s “limited” jurisdiction into any discernible
limitation on intervention. If, as has been hinted, the
concern is that this court does not have jurisdiction
over disputes between two private individuals (i.e.,
the plaintiff and the intervenor), that would be
universally true and render RCFC 24(a) moribund.
If, instead, the concern is that this court does not
have independent jurisdiction over the intervenor—
that the applicant, for example, is not covered by the
Tucker Act—that likely would be true of every putative
intervening defendant, wiping out the most common
form of intervention here. The answer to these enigmas
is that, at least for intervening defendants, this court’s
“limited” jurisdiction is no limitation at all, for two
reasons. First, it is well-accepted that defendants
intervening as a matter of right need not have independent jurisdictional grounds, but instead are covered
by the doctrine of ancillary jurisdiction.7 In the
7 See Phelps v. Oaks, 117 U.S. 236 (1886); Sweeney v. Athens
Reg’l Med. Ctr., 917 F.2d 1560, 1566 (11th Cir. 1990) (“ancillary
jurisdiction can support” intervenor of right); Int’l Paper Co. v.
Inhabitants of Town of Jay, Me., 887 F.2d 338, 346 (1st Cir.
1989) (“As a general rule, parties entitled to intervention as of
right under Rule 24(a) fall within a federal court’s ancillary
jurisdiction; no independent basis of jurisdiction is, therefore,
necessary.”); Curtis v. Sears, Roebuck & Co., 754 F.2d 781, 783
(8th Cir. 1985) (“intervention of right is a proper vehicle for the
exercise of the court’s ancillary jurisdiction”); Babcock & Wilcox
Co. v. Parsons Corp., 430 F.2d 531, 540 (8th Cir. 1970) (“[w]here
intervention is of right . . . the courts and authorities are in substantial agreement that there need be no independent jurisdictional grounds to support the intervenor’s claim”); Lesnik v.
Pub. Indus. Corp., 144 F.2d 968, 973-74 (2d Cir. 1944) (“the
adding of parties under the rules has been viewed in the light of

Res.App.16a
court’s view, this well-established jurisdictional
doctrine, which rests on “considerations of judicial
economy and fairness,” Consolo v. Federal Maritime
Comm’n, 383 U.S. 607, 617 n. 14 (1966), and is
especially tailored for “courts of limited jurisdiction,”
Morrow v. District of Columbia, 417 F.2d 728, 738
(D.C. Cir. 1969), is as applicable here as in any Federal court, all of which, of course, are of “limited”
jurisdiction.8 Moreover, no separate waiver of sovereign
immunity is required for intervening defendants,
which are filing not against, but in support of the
United States. See Int’l Mortgage & Inv. Corp. v. Von
Clemm, 301 F.2d 857, 863-64 (2d Cir. 1962) (while
the ancient and well-established principle that a federal court
has ‘ancillary’ jurisdiction to complete adjudication of interrelated matters where its jurisdiction has once been competently invoked”); see also Zahn v. Int’l Paper Co., 414 U.S. 291,
306 (1973) (Brennan, J. dissenting) (the Supreme Court has
sustained the exercise of ancillary jurisdiction, “where a party’s
intervention was held to be a matter of right, as is now provided
by Rule 24(a)”).
8 Under ancillary jurisdiction, a court acquires “jurisdiction of a
case or controversy as an entirety, and it may, as an incident to
the disposition of a matter properly before it, possess jurisdiction to decide other matters raised by the case of which it could
not take cognizance were they independently presented.” Federal Practice and Procedure § 1917, at 460; see also Kokkonen v.
Guardian Life Ins. Co. of America, 511 U.S. 375, 379-80 (1994).
Because such jurisdiction springs from the necessity of effectively exercising the jurisdiction Congress actually grants, the
court sees no reason why it should be distinguished from other
Federal courts in this regard, at least for the limited purpose of
allowing intervention by a defendant. For district courts, this
ancillary jurisdiction is now subsumed under the “supplemental” jurisdiction provided by 28 U.S.C. § 1367, enacted as part of
the Judicial Improvements Act of 1990, Pub. L. No. 101-650,
104 Stat. 5089.

Res.App.17a
the “United States must consent to be sued,” it need
not “consent to be defended”); Chalmers v. United
States, 43 F.R.D. 286, 291 (D. Kan. 1967) (same).
Accordingly, like the Carrollian Jabberwock, the concerns over intervention previously expressed about
this court’s “limited” jurisdiction ultimately prove a
fiction.
Nor can this court agree with decisions that hold
that stare decisis can supply the practical impairment
required by Rule 24(a), but conclude that such is not
the case if the precedent is not binding, with the
potential intervenor “free to assert its rights in a
separate action.” Anderson Columbia Envtl., 42 Fed.
Cl. at 882; see also John R. San & Gravel Co. v.
United States, 59 Fed. Cl. 645, 655 (2004). Snatching
with the right hand what they dangle with the left,
these cases blur the distinction between res judicata
and stare decisis, essentially defining the latter to
mean the former, at least in any trial court—after
all, in our Federal system, no trial court opinion is
binding in a separate proceeding, except by application
of res judicata or collateral estoppel principles. Yet,
there is no indication that, in holding that stare
decisis concerns can support intervention, courts
have used that term in such a cramped fashion—to
refer only to binding, rather than persuasive, authority—the narrowness of which would clash with accepted
meanings of the doctrine.9 To the contrary, several
9 See, e.g., Planned Parenthood of Southeastern Pa. v. Casey,
505 U.S. 833, 953 (1992) (Rehnquist, C.J., concurring in the
judgment, in part, and dissenting, in part) (“Stare decisis is
defined in Black’s Law Dictionary as meaning ‘to abide by, or
adhere to, decided cases.’ Black’s Law Dictionary 1406 (6th ed.
1990)”); Brock v. El Paso Natural Gas Co., 826 F.2d 369, 374
(5th Cir. 1987) (quoting Flowers v. United States, 764 F.2d 759,

Res.App.18a
courts have explicitly granted intervention based upon
concerns that, under the doctrine, an adverse opinion
would have persuasive impact in another circuit.
See, e.g., Nuesse v. Camp, 385 F.2d 694, 702 (D.C.
Cir. 1967) (“a decision by the District Court here, the
first judicial treatment of this question, would receive
great weight, whether the question arose again in
this jurisdiction or in the federal court in Wisconsin”);
In re Oceana Int’l, Inc., 49 F.R.D. 329, 332 (S.D.N.Y.
1970). Decisions of this court that have suggested
otherwise essentially construe Rule 24(a) as if it had
not been amended in 1966 to delete the requirement
that a putative intervenor be “bound by” a decision.
See Sam Fox Publ’g Co., 366 U.S. at 694 (practical
impact “is not at all the equivalent of being legally
bound”). That, this court will not do.10
761 (11th Cir. 1985) (“[s]tare decisis means that like facts will
receive like treatment in a court of law”). Also describing the
doctrine in more general terms, Justice Cardozo once wrote:
[I]n a system so highly developed as our own, precedents have so covered the ground that they fix the
point of departure from which the labor of the judge
begins. Almost invariably, his first step is to examine
and compare them. If they are plain and to the point,
there may be need of nothing more. Stare decisis is
at least the every day working rule of our law.
Benjamin Cardozo, The Nature of the Judicial Process 20 (1921);
see also Gilman v. City of Philadelphia, 70 U.S. 713, 724 (1865)
(describing broadly the philosophical underpinnings of the
doctrine).
10 The court does not mean to suggest that intervention may be
had in every case in which a decision might have an adverse
effect as stare decisis. Here, there is the potential that rulings
will be rendered with respect to the very water and related
transactions that might be at issue in a later proceeding. The

Res.App.19a
Admittedly, this court is loath to disagree with
the cited decisions, but, in the end, it is compelled to
conclude that the limitations these cases impose are
devoid of substance.11 Guided by the plain language
of RCFC 24(a), this court simply cannot ignore the
practical reality that, whether formally under stare
decisis or not, a succeeding court, even if not bound
by precedent, will—and should—be impacted by a
prior opinion dealing with the same issues and subject matter. Indeed, the Supreme Court has observed
that such consistency principles “are at their acme in
cases involving property and contract rights.” State
Oil Co. v. Khan, 522 U.S. 3, 20 (1997). Where, as here,
the potential of additional litigation involving the same
resources looms large, a putative intervenor should
court only holds that such a conjunction of issues and subject
matter warrants intervention.
11 Curiously, to this court’s knowledge, the limitations on intervention imposed in these cases rarely, if ever, have been applied
by this court in regularly granting intervention to awardees in
contract bid protest actions. Indeed, this court’s rules anticipate
that intervention will be granted to such awardees, see RCFC
Appendix C, para. 8, despite the fact that: (i) it is not “certain”
that their interests will be adversely impacted by this court’s
ruling; (ii) this court would lack jurisdiction over a direct dispute
between the awardee (none of which, mind you, have claims
against the United States) and the protester; and (iii) this court’s
rulings would not be binding precedent, except where law of the
case or res judicata considerations applied. In addition, there is
no indication that this court has applied anything approaching
these rigorous limitations in construing the identical requirements for joinder in RCFC 19. See Perch Assocs. L.P. v. United
States, 20 Cl. Ct. 456, 456-57 (1990) (“Public policy would have
all courts greatly liberalize joinder of parties and claims in
order to provide for effective settlement of all disputes at one
time, when essential portions of a dispute are already before the
court.”).

Res.App.20a
be allowed to prevent the development of adverse
precedents that undoubtedly will be wielded against
it in the future. To the extent prior decisions of this
court are to the contrary, this court finds them, with
all due respect—and notwithstanding stare decisis—
to be erroneous.
Finally, under RCFC 24(a), the applicant must also
show that its interest is not “adequately represented
by existing parties.” The burden of demonstrating
inadequacy of representation is not heavy: according
to the Supreme Court, this requirement “is satisfied
if the applicant shows that representation of his
interest ‘may be’ inadequate; and the burden of making
that showing should be treated as minimal.” Trbovich
v. United States, 404 U.S. 528, 538 n.10 (1972). As to
PCFFA, the court finds that this requirement is met
because the government’s interest in this litigation
does not coincide with the economic concerns of the
Pacific fishing industry. Colloquially speaking, PCFFA
cannot expect the government to “carry its water”—
at least all of it. See Sierra Club v. Espy, 18 F.3d 1202,
1207-08 (5th Cir. 1994) (U.S. Forest Service would
not adequately represent interests of timber industry
in defending lawsuit brought by environmental group,
because the “government must represent the broad
public interest, not just economic concerns of the
timber industry.”). Defendant does not claim to the
contrary, nor, in good faith, could it, given the tensions
that arose when defendant recently settled Tulare
Lake Basin Water District, et al. v. United States, No.
98-101L (Fed. Cl.), a case involving similar issues.
See Mausolf v. Babbitt, 85 F.3d 1295, 1303 (8th Cir.
1996) (applicants interests not adequately represented
by government where past conduct revealed diver-

Res.App.21a
gence). The fact that this court concludes that PCFFA
should be allowed to intervene, however, does obviate
the necessity of determining whether the remaining
applicants should be granted intervenor status because,
in the court’s view, PCFFA will adequately represent
those applicants’ interests, as reflected by the fact
that, to date, they share common counsel.12
In sum, this court finds that PCFFA has met all
the requirements of RCFC 24(a)(2)13 and thus is
entitled to intervene as a defendant in this action, as
a matter of right. The court does not believe that
granting this intervention will unduly delay or prejudice
the adjudication of the rights of the original parties.
Though plaintiffs’ counsel views with alarm the consequences of a ruling permitting this intervention, it
bears emphasis that the court has adequate facility to
limit the issues which may be presented in a proceeding and, in particular, to prevent extraneous issues
that might prove disruptive from being injected into
this already complex suit. Accordingly, the court
GRANTS, IN PART, the motion filed by PCFFA,
insofar as it applies to PCFFA itself and to the extent
consistent with this opinion.
IT IS SO ORDERED.
/s/ Francis M. Allegra
Judge
12 The court thus does not decide whether these applicants meet
the other requirements of RCFC 24(a)(2). Should they wish,
these parties may continue to join PCFFA in making filings in
this case, albeit as amici.
13 Plaintiffs have not raised any serious question regarding the
timeliness of the intervention application here. Given the nascent
status of these proceedings, the court believes that the application most certainly was timely.

Res.App.22a
16. U.S.C. § 1536
STATUTORY PROVISIONS
16 U.S.C. § 1536—Interagency Cooperation
(a) Federal Agency Actions and Consultations
(1) The Secretary shall review other programs
administered by him and utilize such programs in
furtherance of the purposes of this chapter. All other
Federal agencies shall, in consultation with and with
the assistance of the Secretary, utilize their authorities
in furtherance of the purposes of this chapter by
carrying out programs for the conservation of endangered species and threatened species listed pursuant
to section 1533 of this title.
(2) Each Federal agency shall, in consultation
with and with the assistance of the Secretary, insure
that any action authorized, funded, or carried out by
such agency (hereinafter in this section referred to as
an “agency action”) is not likely to jeopardize the continued existence of any endangered species or threatened species or result in the destruction or adverse
modification of habitat of such species which is determined by the Secretary, after consultation as appropriate with affected States, to be critical, unless such
agency has been granted an exemption for such
action by the Committee pursuant to subsection (h)
of this section. In fulfilling the requirements of this
paragraph each agency shall use the best scientific
and commercial data available.
(3) Subject to such guidelines as the Secretary
may establish, a Federal agency shall consult with

Res.App.23a
the Secretary on any prospective agency action at the
request of, and in cooperation with, the prospective
permit or license applicant if the applicant has reason
to believe that an endangered species or a threatened
species may be present in the area affected by his
project and that implementation of such action will
likely affect such species.
(4) Each Federal agency shall confer with the
Secretary on any agency action which is likely to
jeopardize the continued existence of any species
proposed to be listed under section 1533 of this title
or result in the destruction or adverse modification of
critical habitat proposed to be designated for such
species. This paragraph does not require a limitation
on the commitment of resources as described in
subsection (d).
(b) Opinion of Secretary
(1)
(A) Consultation under subsection (a)(2) with
respect to any agency action shall be concluded
within the 90-day period beginning on the date on
which initiated or, subject to subparagraph (B),
within such other period of time as is mutually
agreeable to the Secretary and the Federal
agency.
(B) In the case of an agency action involving a
permit or license applicant, the Secretary and
the Federal agency may not mutually agree to
conclude consultation within a period exceeding 90
days unless the Secretary, before the close of the
90th day referred to in subparagraph (A)—

Res.App.24a
(i)

if the consultation period proposed to be
agreed to will end before the 150th day after
the date on which consultation was initiated,
submits to the applicant a written statement setting forth—
(I)

the reasons why a longer period is required,

(II) the information that is required to
complete the consultation, and
(III) the estimated date on which consultation will be completed; or
(ii) if the consultation period proposed to be
agreed to will end 150 or more days after
the date on which consultation was initiated,
obtains the consent of the applicant to such
period.
The Secretary and the Federal agency may
mutually agree to extend a consultation period
established under the preceding sentence if the
Secretary, before the close of such period, obtains
the consent of the applicant to the extension.
(2) Consultation under subsection (a)(3) shall
be concluded within such period as is agreeable to
the Secretary, the Federal agency, and the applicant
concerned.
(3)
(A) Promptly after conclusion of consultation
under paragraph (2) or (3) of subsection (a), the
Secretary shall provide to the Federal agency
and the applicant, if any, a written statement
setting forth the Secretary’s opinion, and a sum-

Res.App.25a
mary of the information on which the opinion is
based, detailing how the agency action affects the
species or its critical habitat. If jeopardy or
adverse modification is found, the Secretary shall
suggest those reasonable and prudent alternatives
which he believes would not violate subsection
(a)(2) and can be taken by the Federal agency or
applicant in implementing the agency action.
(B) Consultation under subsection (a)(3), and an
opinion issued by the Secretary incident to such
consultation, regarding an agency action shall be
treated respectively as a consultation under subsection (a)(2), and as an opinion issued after
consultation under such subsection, regarding that
action if the Secretary reviews the action before
it is commenced by the Federal agency and finds,
and notifies such agency, that no significant
changes have been made with respect to the action
and that no significant change has occurred
regarding the information used during the initial
consultation.
(4) If after consultation under subsection (a)(2),
the Secretary concludes that—
(A) the agency action will not violate such subsection, or offers reasonable and prudent alternatives which the Secretary believes would not
violate such subsection;
(B) the taking of an endangered species or a
threatened species incidental to the agency action
will not violate such subsection; and
(C) if an endangered species or threatened species
of a marine mammal is involved, the taking is

Res.App.26a
authorized pursuant to section 1371(a)(5) of this
title;
the Secretary shall provide the Federal agency and
the applicant concerned, if any, with a written statement that—
(i)

specifies the impact of such incidental taking
on the species,

(ii) specifies those reasonable and prudent measures that the Secretary considers necessary
or appropriate to minimize such impact,
(iii) in the case of marine mammals, specifies
those measures that are necessary to comply
with section 1371(a)(5) of this title with
regard to such taking, and
(iv) sets forth the terms and conditions (including,
but not limited to, reporting requirements)
that must be complied with by the Federal
agency or applicant (if any), or both, to
implement the measures specified under
clauses (ii) and (iii).
(c) Biological Assessment
(1) To facilitate compliance with the requirements
of subsection (a)(2), each Federal agency shall, with
respect to any agency action of such agency for which
no contract for construction has been entered into
and for which no construction has begun on November 10, 1978, request of the Secretary information
whether any species which is listed or proposed to be
listed may be present in the area of such proposed
action. If the Secretary advises, based on the best
scientific and commercial data available, that such

Res.App.27a
species may be present, such agency shall conduct a
biological assessment for the purpose of identifying
any endangered species or threatened species which
is likely to be affected by such action. Such assessment shall be completed within 180 days after the
date on which initiated (or within such other period
as is mutually agreed to by the Secretary and such
agency, except that if a permit or license applicant is
involved, the 180-day period may not be extended
unless such agency provides the applicant, before the
close of such period, with a written statement setting
forth the estimated length of the proposed extension
and the reasons therefor) and, before any contract for
construction is entered into and before construction
is begun with respect to such action. Such assessment may be undertaken as part of a Federal agency’s
compliance with the requirements of section 102 of
the National Environmental Policy Act of 1969 (42
U.S.C. 4332).
(2) Any person who may wish to apply for an
exemption under subsection (g) of this section for that
action may conduct a biological assessment to identify
any endangered species or threatened species which
is likely to be affected by such action. Any such
biological assessment must, however, be conducted in
cooperation with the Secretary and under the supervision of the appropriate Federal agency.
(d) Limitation on Commitment of Resources
After initiation of consultation required under
subsection (a)(2), the Federal agency and the permit
or license applicant shall not make any irreversible
or irretrievable commitment of resources with respect
to the agency action which has the effect of foreclosing

Res.App.28a
the formulation or implementation of any reasonable
and prudent alternative measures which would not
violate subsection (a)(2) of this section.
(e) Endangered Species Committee
(1) There is established a committee to be known
as the Endangered Species Committee (hereinafter
in this section referred to as the “Committee”).
(2) The Committee shall review any application
submitted to it pursuant to this section and determine in accordance with subsection (h) of this section
whether or not to grant an exemption from the
requirements of subsection (a)(2) of this section for
the action set forth in such application.
(3) The Committee shall be composed of seven
members as follows:
(A) The Secretary of Agriculture.
(B) The Secretary of the Army.
(C) The Chairman of the Council of Economic
Advisors.
(D) The Administrator of the Environmental Protection Agency.
(E) The Secretary of the Interior.
(F) The Administrator of the National Oceanic
and Atmospheric Administration.
(G) The President, after consideration of any
recommendations received pursuant to subsection
(g)(2)(B) shall appoint one individual from each
affected State, as determined by the Secretary,
to be a member of the Committee for the consideration of the application for exemption for an

Res.App.29a
agency action with respect to which such recommendations are made, not later than 30 days
after an application is submitted pursuant to
this section.
(4)
(A) Members of the Committee shall receive no
additional pay on account of their service on the
Committee.
(B) While away from their homes or regular
places of business in the performance of services
for the Committee, members of the Committee
shall be allowed travel expenses, including per
diem in lieu of subsistence, in the same manner
as persons employed intermittently in the Government service are allowed expenses under
section 5703 of Title 5.
(5)
(A) Five members of the Committee or their
representatives shall constitute a quorum for the
transaction of any function of the Committee,
except that, in no case shall any representative
be considered in determining the existence of a
quorum for the transaction of any function of the
Committee if that function involves a vote by the
Committee on any matter before the Committee.
(B) The Secretary of the Interior shall be the
Chairman of the Committee.
(C) The Committee shall meet at the call of the
Chairman or five of its members.
(D) All meetings and records of the Committee
shall be open to the public.

Res.App.30a
(6) Upon request of the Committee, the head of
any Federal agency is authorized to detail, on a
nonreimbursable basis, any of the personnel of such
agency to the Committee to assist it in carrying out
its duties under this section.
(7)
(A) The Committee may for the purpose of carrying out its duties under this section hold such
hearings, sit and act at such times and places,
take such testimony, and receive such evidence,
as the Committee deems advisable.
(B) When so authorized by the Committee, any
member or agent of the Committee may take any
action which the Committee is authorized to
take by this paragraph.
(C) Subject to the Privacy Act, the Committee
may secure directly from any Federal agency
information necessary to enable it to carry out
its duties under this section. Upon request of the
Chairman of the Committee, the head of such
Federal agency shall furnish such information to
the Committee.
(D) The Committee may use the United States
mails in the same manner and upon the same
conditions as a Federal agency.
(E) The Administrator of General Services shall
provide to the Committee on a reimbursable
basis such administrative support services as
the Committee may request.
(8) In carrying out its duties under this section,
the Committee may promulgate and amend such

Res.App.31a
rules, regulations, and procedures, and issue and
amend such orders as it deems necessary.
(9) For the purpose of obtaining information
necessary for the consideration of an application for
an exemption under this section the Committee may
issue subpoenas for the attendance and testimony of
witnesses and the production of relevant papers,
books, and documents.
(10) In no case shall any representative, including
a representative of a member designated pursuant to
paragraph (3)(G) of this subsection, be eligible to cast
a vote on behalf of any member.
(f) Promulgation of Regulations; Form and Contents
of Exemption Application
Not later than 90 days after November 10, 1978,
the Secretary shall promulgate regulations which set
forth the form and manner in which applications for
exemption shall be submitted to the Secretary and
the information to be contained in such applications.
Such regulations shall require that information submitted in an application by the head of any Federal
agency with respect to any agency action include, but
not be limited to—
(1) a description of the consultation process
carried out pursuant to subsection (a)(2) of this section
between the head of the Federal agency and the
Secretary; and
(2) a statement describing why such action
cannot be altered or modified to conform with the
requirements of subsection (a)(2) of this section.

Res.App.32a
(g) Application for Exemption; Report to Committee
(1) A Federal agency, the Governor of the State in
which an agency action will occur, if any, or a permit
or license applicant may apply to the Secretary for an
exemption for an agency action of such agency if, after
consultation under subsection (a)(2), the Secretary’s
opinion under subsection (b) indicates that the agency
action would violate subsection (a)(2). An application
for an exemption shall be considered initially by the
Secretary in the manner provided for in this subsection,
and shall be considered by the Committee for a final
determination under subsection (h) after a report is
made pursuant to paragraph (5). The applicant for
an exemption shall be referred to as the “exemption
applicant” in this section.
(2)
(A) An exemption applicant shall submit a written
application to the Secretary, in a form prescribed
under subsection (f), not later than 90 days after
the completion of the consultation process; except
that, in the case of any agency action involving a
permit or license applicant, such application
shall be submitted not later than 90 days after
the date on which the Federal agency concerned
takes final agency action with respect to the
issuance of the permit or license. For purposes of
the preceding sentence, the term “final agency
action” means (i) a disposition by an agency with
respect to the issuance of a permit or license
that is subject to administrative review, whether
or not such disposition is subject to judicial
review; or (ii) if administrative review is sought
with respect to such disposition, the decision
resulting after such review. Such application

Res.App.33a
shall set forth the reasons why the exemption
applicant considers that the agency action meets
the requirements for an exemption under this
subsection.
(B) Upon receipt of an application for exemption
for an agency action under paragraph (1), the
Secretary shall promptly (i) notify the Governor
of each affected State, if any, as determined by
the Secretary, and request the Governors so
notified to recommend individuals to be appointed
to the Endangered Species Committee for consideration of such application; and (ii) publish notice of
receipt of the application in the Federal Register,
including a summary of the information contained in the application and a description of the
agency action with respect to which the application for exemption has been filed.
(3) The Secretary shall within 20 days after the
receipt of an application for exemption, or within
such other period of time as is mutually agreeable to
the exemption applicant and the Secretary—
(A) determine that the Federal agency concerned and the exemption applicant have—
(i)

carried out the consultation responsibilities
described in subsection (a) in good faith and
made a reasonable and responsible effort to
develop and fairly consider modifications or
reasonable and prudent alternatives to the
proposed agency action which would not
violate subsection (a)(2);

(ii) conducted any biological assessment required
by subsection (c); and

Res.App.34a
(iii) to the extent determinable within the time
provided herein, refrained from making any
irreversible or irretrievable commitment of
resources prohibited by subsection (d); or
(B) deny the application for exemption because
the Federal agency concerned or the exemption
applicant have not met the requirements set
forth in subparagraph (A)(i), (ii), and (iii).
The denial of an application under subparagraph (B)
shall be considered final agency action for purposes
of chapter 7 of Title 5.
(4) If the Secretary determines that the Federal agency concerned and the exemption applicant
have met the requirements set forth in paragraph
(3)(A)(i), (ii), and (iii) he shall, in consultation with the
Members of the Committee, hold a hearing on the
application for exemption in accordance with sections
554, 555, and 556 (other than subsection (b)(1) and
(2) thereof) of Title 5 and prepare the report to be
submitted pursuant to paragraph (5).
(5) Within 140 days after making the determinations under paragraph (3) or within such other period
of time as is mutually agreeable to the exemption
applicant and the Secretary, the Secretary shall submit
to the Committee a report discussing—
(A) the availability of reasonable and prudent
alternatives to the agency action, and the nature
and extent of the benefits of the agency action
and of alternative courses of action consistent
with conserving the species or the critical habitat;

Res.App.35a
(B) a summary of the evidence concerning
whether or not the agency action is in the public
interest and is of national or regional significance;
(C) appropriate reasonable mitigation and
enhancement measures which should be considered by the Committee; and
(D) whether the Federal agency concerned and
the exemption applicant refrained from making
any irreversible or irretrievable commitment of
resources prohibited by subsection(d).
(6) To the extent practicable within the time required for action under subsection (g) of this section,
and except to the extent inconsistent with the requirements of this section, the consideration of any application for an exemption under this section and the
conduct of any hearing under this subsection shall be
in accordance with sections 554, 555, and 556 (other
than subsection (b)(3) of section 556) of Title 5.
(7) Upon request of the Secretary, the head of
any Federal agency is authorized to detail, on a
nonreimbursable basis, any of the personnel of such
agency to the Secretary to assist him in carrying out
his duties under this section.
(8) All meetings and records resulting from activities pursuant to this subsection shall be open to the
public.
(h) Grant of Exemption
(1) The Committee shall make a final determination whether or not to grant an exemption within
30 days after receiving the report of the Secretary
pursuant to subsection (g)(5). The Committee shall

Res.App.36a
grant an exemption from the requirements of subsection
(a)(2) for an agency action if, by a vote of not less
than five of its members voting in person—
(A) it determines on the record, based on the
report of the Secretary, the record of the hearing
held under subsection (g)(4) and on such other
testimony or evidence as it may receive, that—
(i)

there are no reasonable and prudent alternatives to the agency action;

(ii) the benefits of such action clearly outweigh
the benefits of alternative courses of action
consistent with conserving the species or its
critical habitat, and such action is in the
public interest;
(iii) the action is of regional or national significance; and
(iv) neither the Federal agency concerned nor
the exemption applicant made any irreversible
or irretrievable commitment of resources
prohibited by subsection (d); and
(B) it establishes such reasonable mitigation and
enhancement measures, including, but not limited
to, live propagation, transplantation, and habitat
acquisition and improvement, as are necessary
and appropriate to minimize the adverse effects
of the agency action upon the endangered species,
threatened species, or critical habitat concerned.
Any final determination by the Committee under this
subsection shall be considered final agency action for
purposes of chapter 7 of Title 5.

Res.App.37a
(2)
(A) Except as provided in subparagraph (B), an
exemption for an agency action granted under
paragraph (1) shall constitute a permanent
exemption with respect to all endangered
or threatened species for the purposes of
completing such agency action—
(i)

regardless whether the species was identified in the biological assessment; and

(ii) only if a biological assessment has been
conducted under subsection (c) with
respect to such agency action.
(B) An exemption shall be permanent under
subparagraph (A) unless—
(i)

the Secretary finds, based on the best
scientific and commercial data available,
that such exemption would result in
the extinction of a species that was not
the subject of consultation under subsection (a)(2) or was not identified in any
biological assessment conducted under
subsection (c), and

(ii) the Committee determines within 60
days after the date of the Secretary’s
finding that the exemption should not
be permanent.
If the Secretary makes a finding described in
clause (i), the Committee shall meet with respect
to the matter within 30 days after the date of
the finding.

Res.App.38a
(i) Review by Secretary of State; Violation of International Treaty or Other International Obligation
of United States
Notwithstanding any other provision of this
chapter, the Committee shall be prohibited from considering for exemption any application made to it, if the
Secretary of State, after a review of the proposed agency
action and its potential implications, and after hearing,
certifies, in writing, to the Committee within 60 days
of any application made under this section that the
granting of any such exemption and the carrying out
of such action would be in violation of an international
treaty obligation or other international obligation of
the United States. The Secretary of State shall, at
the time of such certification, publish a copy thereof
in the Federal Register.
(j) Exemption for National Security Reasons
Notwithstanding any other provision of this
chapter, the Committee shall grant an exemption for
any agency action if the Secretary of Defense finds
that such exemption is necessary for reasons of national
security.
(k) Exemption Decision Not Considered Major Federal
Action; Environmental Impact Statement
An exemption decision by the Committee under
this section shall not be a major Federal action for
purposes of the National Environmental Policy Act of
1969: Provided, That an environmental impact statement which discusses the impacts upon endangered
species or threatened species or their critical habitats
shall have been previously prepared with respect to
any agency action exempted by such order.

Res.App.39a
(l) Committee Order Granting Exemption; Cost of
Mitigation and Enhancement Measures; Report By
Applicant to Council on Environmental Quality
(1) If the Committee determines under subsection
(h) that an exemption should be granted with respect
to any agency action, the Committee shall issue an
order granting the exemption and specifying the
mitigation and enhancement measures established
pursuant to subsection (h) which shall be carried out
and paid for by the exemption applicant in implementing the agency action. All necessary mitigation
and enhancement measures shall be authorized prior
to the implementing of the agency action and funded
concurrently with all other project features.
(2) The applicant receiving such exemption shall
include the costs of such mitigation and enhancement
measures within the overall costs of continuing the
proposed action. Notwithstanding the preceding sentence the costs of such measures shall not be treated
as project costs for the purpose of computing benefitcost or other ratios for the proposed action. Any
applicant may request the Secretary to carry out
such mitigation and enhancement measures. The costs
incurred by the Secretary in carrying out any such
measures shall be paid by the applicant receiving the
exemption. No later than one year after the granting
of an exemption, the exemption applicant shall submit
to the Council on Environmental Quality a report
describing its compliance with the mitigation and
enhancement measures prescribed by this section.
Such a report shall be submitted annually until all
such mitigation and enhancement measures have been
completed. Notice of the public availability of such

Res.App.40a
reports shall be published in the Federal Register by
the Council on Environmental Quality.
(m) Notice Requirement for Citizen Suits Not Applicable
The 60-day notice requirement of section 1540(g)
of this title shall not apply with respect to review of
any final determination of the Committee under subsection (h) of this section granting an exemption from
the requirements of subsection (a)(2) of this section.
(n) Judicial Review
Any person, as defined by section 1532(13) of
this title, may obtain judicial review, under chapter 7
of Title 5, of any decision of the Endangered Species
Committee under subsection (h) in the United States
Court of Appeals for (1) any circuit wherein the
agency action concerned will be, or is being, carried
out, or (2) in any case in which the agency action will
be, or is being, carried out outside of any circuit, the
District of Columbia, by filing in such court within 90
days after the date of issuance of the decision, a
written petition for review. A copy of such petition
shall be transmitted by the clerk of the court to the
Committee and the Committee shall file in the court
the record in the proceeding, as provided in section
2112 of Title 28. Attorneys designated by the Endangered Species Committee may appear for, and represent the Committee in any action for review under
this subsection.

Res.App.41a
(o) Exemption as Providing Exception on Taking of
Endangered Species
Notwithstanding sections 1533(d) and 1538(a)
(1)(B) and (C) of this title, sections 1371 and 1372 of
this title, or any regulation promulgated to implement any such section—
(1) any action for which an exemption is granted
under subsection (h) shall not be considered to be a
taking of any endangered species or threatened species
with respect to any activity which is necessary to
carry out such action; and
(2) any taking that is in compliance with the
terms and conditions specified in a written statement
provided under subsection (b)(4)(iv) shall not be considered to be a prohibited taking of the species concerned.
(p) Exemptions in Presidentially Declared Disaster
Areas
In any area which has been declared by the
President to be a major disaster area under the
Disaster Relief and Emergency Assistance Act, the
President is authorized to make the determinations
required by subsections (g) and (h) of this section for
any project for the repair or replacement of a public
facility substantially as it existed prior to the disaster
under section 405 or 406 of the Disaster Relief and
Emergency Assistance Act, and which the President
determines (1) is necessary to prevent the recurrence
of such a natural disaster and to reduce the potential
loss of human life, and (2) to involve an emergency
situation which does not allow the ordinary procedures of this section to be followed. Notwithstanding

Res.App.42a
any other provision of this section, the Committee
shall accept the determinations of the President under
this subsection.

Res.App.43a
50 C.F.R. § 402.02
REGULATORY PROVISIONS
50 C.F.R. § 402.02—Definitions
Act means the Endangered Species Act of 1973,
as amended, 16 U.S.C. 1531 et seq.
Action means all activities or programs of any
kind authorized, funded, or carried out, in whole
or in part, by Federal agencies in the United
States or upon the high seas. Examples include,
but are not limited to:
(a) actions intended to conserve listed species
or their habitat;
(b) the promulgation of regulations;
(c) the granting of licenses, contracts, leases,
easements, rights-of-way, permits, or grantsin-aid; or
(d) actions directly or indirectly causing modifications to the land, water, or air.
Action area means all areas to be affected directly
or indirectly by the Federal action and not merely
the immediate area involved in the action.
Applicant refers to any person, as defined in
section 3(13) of the Act, who requires formal
approval or authorization from a Federal agency
as a prerequisite to conducting the action.
Biological assessment refers to the information
prepared by or under the direction of the Federal
agency concerning listed and proposed species
and designated and proposed critical habitat

Res.App.44a
that may be present in the action area and the
evaluation potential effects of the action on such
species and habitat.
Biological opinion is the document that states
the opinion of the Service as to whether or not
the Federal action is likely to jeopardize the continued existence of listed species or result in the
destruction or adverse modification of critical
habitat.
Conference is a process which involves informal
discussions between a Federal agency and the
Service under section 7(a)(4) of the Act regarding
the impact of an action on proposed species or
proposed critical habitat and recommendations
to minimize or avoid the adverse effects.
Conservation recommendations are suggestions
of the Service regarding discretionary measures
to minimize or avoid adverse effects of a proposed
action on listed species or critical habitat or
regarding the development of information.
Critical habitat refers to an area designated as
critical habitat listed in 50 CFR parts 17 or 226.
Cumulative effects are those effects of future
State or private activities, not involving Federal
activities, that are reasonably certain to occur
within the action area of the Federal action subject to consultation.
Designated non-Federal representative refers to
a person designated by the Federal agency as its
representative to conduct informal consultation
and/or to prepare any biological assessment.

Res.App.45a
Destruction or adverse modification means a
direct or indirect alteration that appreciably
diminishes the value of critical habitat as a
whole for the conservation of a listed species.
Director refers to the Assistant Administrator
for Fisheries for the National Marine Fisheries
Service, or his or her authorized representative;
or the Director of the U.S. Fish and Wildlife
Service, or his or her authorized representative.
Early consultation is a process requested by a
Federal agency on behalf of a prospective applicant
under section 7(a)(3) of the Act.
Effects of the action are all consequences to
listed species or critical habitat that are caused
by the proposed action, including the consequences
of other activities that are caused by the proposed
action. A consequence is caused by the proposed
action if it would not occur but for the proposed
action and it is reasonably certain to occur.
Effects of the action may occur later in time and
may include consequences occurring outside the
immediate area involved in the action. (See
§ 402.17).
Environmental baseline refers to the condition
of the listed species or its designated critical
habitat in the action area, without the consequences to the listed species or designated
critical habitat caused by the proposed action.
The environmental baseline includes the past
and present impacts of all Federal, State, or
private actions and other human activities in
the action area, the anticipated impacts of all
proposed Federal projects in the action area that

Res.App.46a
have already undergone formal or early section
7 consultation, and the impact of State or private
actions which are contemporaneous with the
consultation in process. The consequences to listed
species or designated critical habitat from ongoing
agency activities or existing agency facilities that
are not within the agency’s discretion to modify
are part of the environmental baseline.
Formal consultation is a process between the
Service and the Federal agency that commences
with the Federal agency’s written request for
consultation under section 7(a)(2) of the Act and
concludes with the Service’s issuance of the
biological opinion under section 7(b)(3) of the Act.
Framework programmatic action means, for purposes of an incidental take statement, a Federal
action that approves a framework for the development of future action(s) that are authorized,
funded, or carried out at a later time, and any
take of a listed species would not occur unless
and until those future action(s) are authorized,
funded, or carried out and subject to further
section 7 consultation.
Incidental take refers to takings that result
from, but are not the purpose of, carrying out an
otherwise lawful activity conducted by the Federal
agency or applicant.
Informal consultation is an optional process that
includes all discussions, correspondence, etc.,
between the Service and the Federal agency or
the designated non-Federal representative prior
to formal consultation, if required.

Res.App.47a
Jeopardize the continued existence of means to
engage in an action that reasonably would be
expected, directly or indirectly, to reduce appreciably the likelihood of both the survival and
recovery of a listed species in the wild by reducing
the reproduction, numbers, or distribution of that
species.
Listed species means any species of fish, wildlife, or
plant which has been determined to be endangered or threatened under section 4 of the Act.
Listed species are found in 50 CFR 17.11–17.12.
Major construction activity is a construction
project (or other undertaking having similar
physical impacts) which is a major Federal
action significantly affecting the quality of the
human environment as referred to in the National
Environmental Policy Act [NEPA, 42 U.S.C.
4332(2)(C)].
Mixed programmatic action means, for purposes
of an incidental take statement, a Federal action
that approves action(s) that will not be subject to
further section 7 consultation, and also approves
a framework for the development of future
action(s) that are authorized, funded, or carried
out at a later time and any take of a listed
species would not occur unless and until those
future action(s) are authorized, funded, or carried
out and subject to further section 7 consultation.
Preliminary biological opinion refers to an opinion
issued as a result of early consultation.
Programmatic consultation is a consultation
addressing an agency’s multiple actions on a
program, region, or other basis. Programmatic

Res.App.48a
consultations allow the Services to consult on
the effects of programmatic actions such as:
(1) Multiple similar, frequently occurring, or
routine actions expected to be implemented
in particular geographic areas; and
(2) A proposed program, plan, policy, or regulation providing a framework for future proposed actions.
Proposed critical habitat means habitat proposed
in the Federal Register to be designated or revised
as critical habitat under section 4 of the Act for
any listed or proposed species.
Proposed species means any species of fish,
wildlife, or plant that is proposed in the Federal
Register to be listed under section 4 of the Act.
Reasonable and prudent alternatives refer to
alternative actions identified during formal consultation that can be implemented in a manner consistent with the intended purpose of the action,
that can be implemented consistent with the
scope of the Federal agency’s legal authority and
jurisdiction, that is economically and technologically feasible, and that the Director believes
would avoid the likelihood of jeopardizing the continued existence of listed species or resulting in
the destruction or adverse modification of critical
habitat.
Reasonable and prudent measures refer to those
actions the Director believes necessary or appropriate to minimize the impacts, i.e., amount or
extent, of incidental take.

Res.App.49a
Recovery means improvement in the status of
listed species to the point at which listing is no
longer appropriate under the criteria set out in
section 4(a)(1) of the Act.
Service means the U.S. Fish and Wildlife Service
or the National Marine Fisheries Service, as
appropriate.

Res.App.50a
50 C.F.R. § 402.14
50 C.F.R. § 402.14—Formal Consultation
(a) Requirement for Formal Consultation
Each Federal agency shall review its actions at
the earliest possible time to determine whether any
action may affect listed species or critical habitat. If
such a determination is made, formal consultation is
required, except as noted in paragraph (b) of this
section. The Director may request a Federal agency to
enter into consultation if he identifies any action of
that agency that may affect listed species or critical
habitat and for which there has been no consultation.
When such a request is made, the Director shall
forward to the Federal agency a written explanation
of the basis for the request.
(b) Exceptions
(1) A Federal agency need not initiate formal
consultation if, as a result of the preparation of a
biological assessment under § 402.12 or as a result of
informal consultation with the Service under § 402.13,
the Federal agency determines, with the written
concurrence of the Director, that the proposed action
is not likely to adversely affect any listed species or
critical habitat.
(2) A Federal agency need not initiate formal
consultation if a preliminary biological opinion, issued
after early consultation under § 402.11, is confirmed
as the final biological opinion.

Res.App.51a
(c) Initiation of Formal Consultation
(1) A written request to initiate formal consultation shall be submitted to the Director and shall
include:
(i) A description of the proposed action, including
any measures intended to avoid, minimize, or
offset effects of the action. Consistent with the
nature and scope of the proposed action, the
description shall provide sufficient detail to assess
the effects of the action on listed species and
critical habitat, including:
(A) The purpose of the action;
(B) The duration and timing of the action;
(C) The location of the action;
(D) The specific components of the action and
how they will be carried out;
(E) Maps, drawings, blueprints, or similar schematics of the action; and
(F) Any other available information related to
the nature and scope of the proposed action
relevant to its effects on listed species or
designated critical habitat.
(ii) A map or description of all areas to be
affected directly or indirectly by the Federal action,
and not merely the immediate area involved in
the action (i.e., the action area as defined at
§ 402.02).
(iii) Information obtained by or in the possession
of the Federal agency and any applicant on the
listed species and designated critical habitat in
the action area (as required by paragraph (c)(1)(ii)

Res.App.52a
of this section), including available information
such as the presence, abundance, density, or
periodic occurrence of listed species and the
condition and location of the species’ habitat,
including any critical habitat.
(iv) A description of the effects of the action and
an analysis of any cumulative effects.
(v) A summary of any relevant information provided by the applicant, if available.
(vi) Any other relevant available information on
the effects of the proposed action on listed
species or designated critical habitat, including
any relevant reports such as environmental
impact statements and environmental assessments.
(2) A Federal agency may submit existing documents prepared for the proposed action such as
NEPA analyses or other reports in substitution for
the initiation package outlined in this paragraph (c).
However, any such substitution shall be accompanied
by a written summary specifying the location of the
information that satisfies the elements above in the
submitted document(s).
(3) Formal consultation shall not be initiated
by the Federal agency until any required biological
assessment has been completed and submitted to the
Director in accordance with § 402.12.
(4) Any request for formal consultation may
encompass, subject to the approval of the Director, a
number of similar individual actions within a given
geographical area, a programmatic consultation, or a
segment of a comprehensive plan. The provision in

Res.App.53a
this paragraph (c)(4) does not relieve the Federal
agency of the requirements for considering the effects
of the action or actions as a whole.
(d) Responsibility to Provide Best Scientific and
Commercial Data Available
The Federal agency requesting formal consultation
shall provide the Service with the best scientific and
commercial data available or which can be obtained
during the consultation for an adequate review of the
effects that an action may have upon listed species or
critical habitat. This information may include the
results of studies or surveys conducted by the Federal agency or the designated non-Federal representative. The Federal agency shall provide any applicant
with the opportunity to submit information for consideration during the consultation.
(e) Duration and Extension of Formal Consultation
Formal consultation concludes within 90 days
after its initiation unless extended as provided below.
If an applicant is not involved, the Service and the
Federal agency may mutually agree to extend the
consultation for a specific time period. If an applicant
is involved, the Service and the Federal agency may
mutually agree to extend the consultation provided
that the Service submits to the applicant, before the
close of the 90 days, a written statement setting forth:
(1) The reasons why a longer period is required,
(2) The information that is required to complete
the consultation, and
(3) The estimated date on which the consultation
will be completed.

Res.App.54a
A consultation involving an applicant cannot be
extended for more than 60 days without the consent
of the applicant. Within 45 days after concluding
formal consultation, the Service shall deliver a biological
opinion to the Federal agency and any applicant.
(f) Additional Data
When the Service determines that additional
data would provide a better information base from
which to formulate a biological opinion, the Director
may request an extension of formal consultation and
request that the Federal agency obtain additional
data to determine how or to what extent the action
may affect listed species or critical habitat. If formal
consultation is extended by mutual agreement according to § 402.14(e), the Federal agency shall obtain, to
the extent practicable, that data which can be developed within the scope of the extension. The responsibility for conducting and funding any studies belongs
to the Federal agency and the applicant, not the
Service. The Service’s request for additional data is
not to be construed as the Service’s opinion that the
Federal agency has failed to satisfy the information
standard of section 7(a) (2) of the Act. If no extension
of formal consultation is agreed to, the Director will
issue a biological opinion using the best scientific
and commercial data available.
(g) Service Responsibilities
Service responsibilities during formal consultation
are as follows:
(1) Review all relevant information provided by
the Federal agency or otherwise available.
Such review may include an on-site inspection

Res.App.55a
of the action area with representatives of
the Federal agency and the applicant.
(2) Evaluate the current status and environmental baseline of the listed species or
critical habitat.
(3) Evaluate the effects of the action and cumulative effects on the listed species or critical
habitat.
(4) Add the effects of the action and cumulative
effects to the environmental baseline and in
light of the status of the species and critical
habitat, formulate the Service’s opinion as
to whether the action is likely to jeopardize
the continued existence of listed species or
result in the destruction or adverse modification of critical habitat.
(5) Discuss with the Federal agency and any
applicant the Service’s review and evaluation
conducted under paragraphs (g) (1)–(3) of
this section, the basis for any finding in the
biological opinion, and the availability of
reasonable and prudent alternatives (if a
jeopardy opinion is to be issued) that the
agency and the applicant can take to avoid
violation of section 7(a)(2). The Service will
utilize the expertise of the Federal agency
and any applicant in identifying these alternatives. If requested, the Service shall
make available to the Federal agency the
draft biological opinion for the purpose of
analyzing the reasonable and prudent alternatives. The 45–day period in which the
biological opinion must be delivered will not

Res.App.56a
be suspended unless the Federal agency
secures the written consent of the applicant
to an extension to a specific date. The applicant may request a copy of the draft opinion
from the Federal agency. All comments on
the draft biological opinion must be submitted to the Service through the Federal
agency, although the applicant may send a
copy of its comments directly to the Service.
The Service will not issue its biological
opinion prior to the 45–day or extended
deadline while the draft is under review by
the Federal agency. However, if the Federal
agency submits comments to the Service
regarding the draft biological opinion within
10 days of the deadline for issuing the
opinion, the Service is entitled to an automatic
10–day extension on the deadline.
(6) Formulate discretionary conservation recommendations, if any, which will assist the
Federal agency in reducing or eliminating
the impacts that its proposed action may
have on listed species or critical habitat.
(7) Formulate a statement concerning incidental
take, if such take is reasonably certain to
occur.
(8) In formulating its biological opinion, any reasonable and prudent alternatives, and any
reasonable and prudent measures, the Service
will use the best scientific and commercial
data available and will give appropriate
consideration to any beneficial actions as
proposed or taken by the Federal agency or
applicant, including any actions taken prior

Res.App.57a
to the initiation of consultation. Measures
included in the proposed action or a reasonable and prudent alternative that are
intended to avoid, minimize, or offset the
effects of an action are considered like other
portions of the action and do not require
any additional demonstration of binding
plans.
(h) Biological Opinions
(1) The biological opinion shall include:
(i) A summary of the information on which the
opinion is based;
(ii) A detailed discussion of the environmental
baseline of the listed species and critical habitat;
(iii) A detailed discussion of the effects of the
action on listed species or critical habitat; and
(iv) The Service’s opinion on whether the action
is:
(A) Likely to jeopardize the continued existence
of a listed species or result in the destruction
or adverse modification of critical habitat (a
“jeopardy” biological opinion); or
(B) Not likely to jeopardize the continued existence of a listed species or result in the destruction or adverse modification of critical habitat
(a “no jeopardy” biological opinion).
(2) A “jeopardy” biological opinion shall include
reasonable and prudent alternatives, if any. If the
Service is unable to develop such alternatives, the
Service will indicate that to the best of its knowledge
there are no reasonable and prudent alternatives.

Res.App.58a
(3) The Service may adopt all or part of:
(i) A Federal agency’s initiation package; or
(ii) The Service’s analysis required to issue a
permit under section 10(a) of the Act in its
biological opinion.
(4) A Federal agency and the Service may agree
to follow an optional collaborative process that would
further the ability of the Service to adopt the information and analysis provided by the Federal agency
during consultation in the development of the Service’s
biological opinion to improve efficiency in the consultation process and reduce duplicative efforts. The Federal agency and the Service shall consider the nature,
size, and scope of the action or its anticipated effects
on listed species or critical habitat, and other relevant
factors to determine whether an action or a class of
actions is appropriate for this process. The Federal
agency and the Service may develop coordination procedures that would facilitate adoption of the initiation
package with any necessary supplementary analyses
and incidental take statement to be added by the
Service, if appropriate, as the Service’s biological
opinion in fulfillment of section 7(b) of the Act.
(i) Incidental Take
(1) In those cases where the Service concludes
that an action (or the implementation of any reasonable
and prudent alternatives) and the resultant incidental
take of listed species will not violate section 7(a)(2),
and, in the case of marine mammals, where the
taking is authorized pursuant to section 101(a)(5) of
the Marine Mammal Protection Act of 1972, the Service

Res.App.59a
will provide with the biological opinion a statement
concerning incidental take that:
(i) Specifies the impact, i.e., the amount or extent,
of such incidental taking on the species (A
surrogate (e.g., similarly affected species or habitat
or ecological conditions) may be used to express
the amount or extent of anticipated take provided
that the biological opinion or incidental take
statement: Describes the causal link between
the surrogate and take of the listed species,
explains why it is not practical to express the
amount or extent of anticipated take or to
monitor take-related impacts in terms of individuals of the listed species, and sets a clear standard for determining when the level of anticipated
take has been exceeded.);
(ii) Specifies those reasonable and prudent
measures that the Director considers necessary
or appropriate to minimize such impact;
(iii) In the case of marine mammals, specifies
those measures that are necessary to comply with
section 101(a)(5) of the Marine Mammal Protection Act of 1972 and applicable regulations with
regard to such taking;
(iv)Sets forth the terms and conditions (including,
but not limited to, reporting requirements) that
must be complied with by the Federal agency or
any applicant to implement the measures specified
under paragraphs (i)(1)(ii) and (i)(1)(iii) of this
section; and
(v) Specifies the procedures to be used to handle
or dispose of any individuals of a species actually taken.

Res.App.60a
(2) Reasonable and prudent measures, along with
the terms and conditions that implement them, cannot
alter the basic design, location, scope, duration, or
timing of the action and may involve only minor
changes.
(3) In order to monitor the impacts of incidental
take, the Federal agency or any applicant must
report the progress of the action and its impact on
the species to the Service as specified in the incidental
take statement. The reporting requirements will be
established in accordance with 50 CFR 13.45 and
18.27 for FWS and 50 CFR 216.105 and 222.301(h)
for NMFS.
(4) If during the course of the action the amount
or extent of incidental taking, as specified under
paragraph (i)(1)(i) of this Section, is exceeded, the
Federal agency must reinitiate consultation immediately.
(5) Any taking which is subject to a statement
as specified in paragraph (i)(1) of this section and
which is in compliance with the terms and conditions
of that statement is not a prohibited taking under
the Act, and no other authorization or permit under
the Act is required.
(6) For a framework programmatic action, an
incidental take statement is not required at the
programmatic level; any incidental take resulting from
any action subsequently authorized, funded, or carried
out under the program will be addressed in subsequent
section 7 consultation, as appropriate. For a mixed
programmatic action, an incidental take statement is
required at the programmatic level only for those
program actions that are reasonably certain to cause

Res.App.61a
take and are not subject to further section 7 consultation.
(j) Conservation Recommendations
The Service may provide with the biological
opinion a statement containing discretionary conservation recommendations. Conservation recommendations are advisory and are not intended to carry any
binding legal force.
(k) Incremental Steps
When the action is authorized by a statute that
allows the agency to take incremental steps toward
the completion of the action, the Service shall, if
requested by the Federal agency, issue a biological
opinion on the incremental step being considered,
including its views on the entire action. Upon the
issuance of such a biological opinion, the Federal
agency may proceed with or authorize the incremental
steps of the action if:
(1) The biological opinion does not conclude that
the incremental step would violate section
7(a)(2);
(2) The Federal agency continues consultation
with respect to the entire action and obtains
biological opinions, as required, for each
incremental step;
(3) The Federal agency fulfills its continuing
obligation to obtain sufficient data upon
which to base the final biological opinion on
the entire action;

Res.App.62a
(4) The incremental step does not violate section
7(d) of the Act concerning irreversible or
irretrievable commitment of resources; and
(5) There is a reasonable likelihood that the
entire action will not violate section 7(a)(2)
of the Act.
(l) Expedited Consultations
Expedited consultation is an optional formal
consultation process that a Federal agency and the
Service may enter into upon mutual agreement. To
determine whether an action or a class of actions is
appropriate for this type of consultation, the Federal
agency and the Service shall consider the nature,
size, and scope of the action or its anticipated effects
on listed species or critical habitat and other relevant
factors. Conservation actions whose primary purpose
is to have beneficial effects on listed species will
likely be considered appropriate for expedited consultation.
(1) Expedited Timelines
Upon agreement to use this expedited consultation
process, the Federal agency and the Service shall
establish the expedited timelines for the completion
of this consultation process.
(2) Federal Agency Responsibilities
To request initiation of expedited consultation,
the Federal agency shall provide all the information
required to initiate consultation under paragraph (c) of
this section. To maximize efficiency and ensure that
it develops the appropriate level of information, the

Res.App.63a
Federal agency is encouraged to develop its initiation
package in coordination with the Service.
(3) Service Responsibilities
In addition to the Service’s responsibilities under
the provisions of this section, the Service will:
(i)

Provide relevant species information to the
Federal agency and guidance to assist the
Federal agency in completing its effects
analysis in the initiation package; and

(ii) Conclude the consultation and issue a biological opinion within the agreed-upon timeframes.
(m) Termination of Consultation
(1) Formal consultation is terminated with the
issuance of the biological opinion.
(2) If during any stage of consultation a Federal agency determines that its proposed action is not
likely to occur, the consultation may be terminated by
written notice to the Service.
(3) If during any stage of consultation a Federal
agency determines, with the concurrence of the
Director, that its proposed action is not likely to
adversely affect any listed species or critical habitat,
the consultation is terminated.

